No. 20·8

Jl'n tbe ~upren1e Qtourt of tbe Wniteb ~tates
DEUTSCHE BANK T RUST COMPANY AMERICAS, ET AL.,

Petitioners ,
V.

ROBERT R. MCCORMICK FOUNDATION, ET AL.,

Respondents.

CERTIFICATE OF SERVICE

I, Joshua S. Bolian, a member of the Bar of this Court, hereby certify that on
this 8th day of September, 2020, all parties required to be served have been served
with the Reply Brief for Petitioners. Per the Court's Order regarding filings dated
April 15, 2020, a n electronic copy was served on the following:
Philip D. Anker
Alan E. Schoenfeld
Wilmer Cutler Pickering Hale and Dorr LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
philip.anker@wilmerhale.com
The above -listed counsel has agreed to accept electronic service on behalf of
t h e Defend ants' Executive Committee and to distribute the electronic papers to that
Committee. Consistent with the November 21, 2013, Case Management Order from
t he U. S. Court of Appeals for the Second Circuit (ECF No. 63 , Case No. 13-3992 (2d

Cir. , Nov. 21 , 2013)) , counsel for Respondents will provide copies of the Reply Brief
for Petitioners to defendants that are Respondents here, and will provide notice of
the

Reply

Brief

for

Petitioners

http://www.tribune-defendants.com.

on

the

Tribune

Defendants

website,

Notice of the Reply Brief for Petitioners will

also be filed on the district court docket in In re: Tribune Co. Fraudulent

Conveyance Litig., Case No. ll-MD-2296 (RJS) (S.D.N.Y.).

Joshua S. Bolian
Robbins , Russell, Englert,
Orseck, Untereiner & Sauber LLP
2000 K Street, N.W.
Washington, DC 20006
(202) 775-4500
Counsel for the Noteholder Petitioners

